No. 20-5904

eS

 

IN THE

Supreme Court of the United States

TARAHRICK TERRY,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

On a Writ of Certiorari to the United States Court of
Appeals for the Eleventh Circuit

BRIEF OF THE DISTRICT OF COLUMBIA
AND THE STATES OF COLORADO,
DELAWARE, ILLINOIS, IOWA, MARYLAND,
MASSACHUSETTS, MICHIGAN, MINNESOTA,
NEVADA, NEW JERSEY, NEW YORK,
NORTH CAROLINA, OREGON,
PENNSYLVANIA, RHODE ISLAND, VERMONT,
VIRGINIA, AND WASHINGTON AS
AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,181 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2021.

 

Wilson-Epes Printing Co., Inc.
